Case: 20-60596

APPENDIX

Document: 00515811648

Page: 1

Date Filed: 04/07/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

April 7, 2021

No. 20-60596
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Maria Teresa Duarte Godinez,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 1:17-CR-90-2
Before Higginbotham, Jones, and Costa, Circuit Judges.
Per Curiam:*
Maria Teresa Duarte Godinez pleaded guilty to conspiracy to possess
with intent to distribute 500 grams or more of a mixture or substance
containing methamphetamine. She contends that her 262-month prison
term was unreasonable because it did not account for the need to avoid

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-60596

Document: 00515811648

Page: 2

Date Filed: 04/07/2021

No. 20-60596

unwarranted sentencing disparities. Relying on the appeal waiver in her plea
agreement, the Government moves to dismiss the appeal.
According to Duarte Godinez, enforcing the waiver would violate her
right to due process and constitute a miscarriage of justice by barring
consideration of the issue that arose at sentencing and thus undermining
meaningful appellate review and the development of jurisprudence. She
contends that the waiver was unknowing and involuntary because she was
unaware of the meritorious sentencing issue when she executed the plea
agreement. She further contends that, without the waiver, she provided
consideration for the plea bargain by waiving her rights to remain silent,
confront witnesses, and a jury trial.
We review the validity of an appeal waiver de novo. United States v.
Baymon, 312 F.3d 725, 727 (5th Cir. 2002). The waiver provision in Duarte
Godinez’s plea agreement waived her right to appeal the sentence on any
ground whatsoever, with the exception of ineffective assistance of counsel.
The record shows that the waiver was knowing and voluntary, as she knew
she had the right to appeal and that she was giving up that right in the plea
agreement. See United States v. Portillo, 18 F.3d 290, 292 (5th Cir. 1994).
Because the plain language of the waiver applies to her claim that the
sentence was unreasonable, the appeal is DISMISSED. See United States
v. Bond, 414 F.3d 542, 544, 546 (5th Cir. 2005). The motion to dismiss is
GRANTED, and the Government’s alternative motion for summary
affirmance is DENIED.

2

Case: 20-60596

Document: 00515811673

Page: 1

Date Filed: 04/07/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

___________

FILED
April 7, 2021

No. 20-60596
Summary Calendar
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Maria Teresa Duarte Godinez,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 1:17-CR-90-2
____________________________
Before Higginbotham, Jones, and Costa, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the appeal is
DISMISSED.

